STATE OF WISCONSIN
DEPARTMENT OF JUSTICE


Josh Kaul
Attorney General

17 W. Main Street
P.O. Box 7857
Madison, WI 53707-7857
www.doj.state.wi.us

Scott E. Rosenow
Assistant Attorney General
rosenowse@doj.state.wi.us
608/266-3539
FAX 608/294-2907

March 15, 2021
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street N.E.
Washington D.C. 20543
Re:

Chong Leng Lee v. State of Wisconsin,
Case No. 20-6890

Dear Mr. Harris:
I have been assigned the responsibility of representing the State of
Wisconsin in the above-referenced matter. Pursuant to Supreme Court
Rule 30.4, the State respectfully requests an extension of 31 days in which to
file a Brief in Opposition to the Petition for Writ of Certiorari in this case. The
brief is currently due Friday, March 19, 2021. Granting this extension would
make the brief due Monday, April 19, 2021.
I have finished a draft of the State’s Brief in Opposition, but it still must
undergo administrative review, possible further revision, and a finalization
process before I may file it. This finalization process includes proof-reading the
brief, formatting it, and checking all its citations.
Moreover, I am a deputy director of the criminal appeals unit at the
Wisconsin Department of Justice. In that role, I am responsible for supervising
six attorneys and overseeing my unit’s habeas corpus litigation in federal court.
Since this Court requested a response to Petitioner Chong Leng Lee’s
certiorari petition on February 17, I have completed and remain obligated to
complete assignments in other matters over the next several weeks, including:
oral argument on February 23 in State v. Heather Jan VanBeek, Wisconsin
Supreme Court, Case No. 2019AP447-CR; response to a petition for review in

Mr. Harris
March 15, 2021
Page 2

State v. C. G., Wisconsin Supreme Court, Case No. 2018AP2205, filed on
March 3; oral argument on March 3 in State v. James Timothy Genous,
Wisconsin Supreme Court, Case No. 2019AP435-CR; appellant’s brief-in-chief
in State v. James P. Killian, Wisconsin Court of Appeals, Case No.
2020AP2012-CR, filed on March 9; response brief in State v. Laverne Ware, Jr.,
Wisconsin Court of Appeals, Case No. 2020AP1559-CR, due on March 31 (on
first extension); preparing for oral argument on March 18 in State v. Jordan
Alexander Lickes, Wisconsin Supreme Court, Case No. 2019AP1272-CR;
appellant’s brief-in-chief in State v. Jacob Vogel, Wisconsin Court of Appeals,
Case No. 2021AP230-CR, due April 12; preparing for presentations that I will
give on March 30 and April 15 for purposes of continuing legal education
requirements; and preparing for oral argument on April 22 in Antwon D. Flint
v. Kevin Carr, United States Court of Appeals for the Seventh Circuit, Case
No. 20-3165. Therefore, the State requests an extension of time in which to file
a Brief in Opposition to ensure that I have time to provide the Court with a
thorough and responsive brief.
Sincerely,

Scott E. Rosenow
Assistant Attorney General
SER:cjs
c:

Chong Leng Lee #439266
Waupun Correctional Institution

